                       Fiscal Year 2005 Statutory Audit of
                       Compliance With Legal Guidelines
                        Prohibiting the Use of Illegal Tax
                       Protester and Similar Designations

                                        July 2005

                        Reference Number: 2005-40-104




This report has cleared the Treasury Inspector General for Tax Administration disclosure review
process and information determined to be restricted from public release has been redacted from
                                        this document.

Redaction Legend:
1 = Tax Return/Return Information
                                             DEPARTMENT OF THE TREASURY
                                                   WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                        July 5, 2005


      MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                     ENFORCEMENT
                     DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT


      FROM:                         (for) Pamela J. Gardiner
                                    Deputy Inspector General for Audit

      SUBJECT:                      Final Audit Report - Fiscal Year 2005 Statutory Audit of
                                    Compliance With Legal Guidelines Prohibiting the Use of Illegal
                                    Tax Protester and Similar Designations (Audit # 200440052)


      This review presents the results of our review of the Internal Revenue Service’s (IRS)
      use of the designation “Illegal Tax Protester” (ITP) and similar designations. The overall
      objective of this review was to determine whether the IRS complied with IRS
      Restructuring and Reform Act of 1998 (RRA 98)1 Section (§) 3707 and internal
      IRS guidelines that prohibit IRS officers and employees from referring to taxpayers as
      ITPs or any similar designations.
      Prior to enactment of the RRA 98, taxpayers were referred to the ITP Program when
      their tax returns or correspondence contained specific indicators of noncompliance with
      the tax law, such as the use of arguments that had been repeatedly rejected by the
      courts. Once a taxpayer’s account was coded as an ITP, certain tax enforcement
      actions were accelerated. The designation was also intended to alert IRS employees to
      be cautious so they would not be drawn into confrontations with taxpayers.
      RRA 98 § 3707 prohibits the IRS from referring to taxpayers as ITPs or any similar
      designations. The Treasury Inspector General for Tax Administration (TIGTA) is
      required to annually evaluate IRS compliance with the prohibition on the use of ITP or
      any similar designations.2



      1
        Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
      16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
      2
        Internal Revenue Code § 7803(d)(1)(A)(v) (2000).
                                                         2

In summary, the IRS has not reintroduced past ITP codes on the Master File,3 and
formerly coded ITP taxpayer accounts have not been assigned similar Master File
designations. In addition, the IRS does not have any current publications with ITP
references and has initiated actions to remove ITP references from the various forms of
the Internal Revenue Manual (IRM).
In 309 isolated instances, IRS employees continued to make references to taxpayers as
ITPs and other similar designations in case narratives. The IRS has taken steps in
directing its employees to prevent ITP and similar designations from appearing in case
narratives. However, in its response to our Fiscal Year (FY) 2003 report,4 the IRS
disagreed with our determination that, to comply with this provision, IRS employees
should not designate taxpayers as ITPs or similar designations in case narratives. As a
result, we elevated this disagreement to the Assistant Secretary for Management and
Chief Financial Officer of the Treasury but have not yet received a response.
Management’s Response: Since the IRS Office of the Chief Counsel issued an opinion
that references to taxpayers as ITPs or similar designations in case narratives are not a
violation of RRA 98 § 3707, the IRS continues to disagree with our determination on this
issue. As a result, the IRS does not concur with our outcome measure as claimed. In
addition, the IRS stated that all ITP designations will be removed from the IRM by the
end of FY 2005. We will confirm whether all ITP designations have been removed from
the IRM during next year’s mandatory review. Management’s complete response to the
draft report is included as Appendix VII.
Office of Audit Comment: We continue to believe it is reasonable to conclude that,
based upon the language of RRA 98 § 3707, IRS officers and employees should not
label taxpayers as ITPs or similar designations in any IRS records, which include paper
and electronic case files. IRS officers and employees should not designate taxpayers
as ITPs or similar designations because such a designation alone contains a negative
connotation and appears to label the taxpayer.
RRA 98 § 3707 provides that officers and employees of the IRS shall not designate
taxpayers as ITPs or any similar designations. While there is little interpretive
information provided concerning this provision, the Senate Committee Report
(S. Rep. No. 105-174) states that the Committee is concerned taxpayers might be
stigmatized by designation as an ITP. Further, the Report’s explanation of this provision
states that existing designations in the Master File must be removed and any other
designations, such as on paper records that have been archived, must be disregarded.
We have not reported that those taxpayers designated by IRS employees as ITPs or
similar designations have been harmed by these designations. Only a thorough review
of each taxpayer’s case and the treatment accorded the taxpayer would determine if
these taxpayers have been harmed. Because the TIGTA is required to annually

3
  The Master File is the IRS database that stores various types of taxpayer account information. This database
includes individual, business, and employee plans and exempt organizations data.
4
  Fiscal Year 2003 Statutory Audit of Compliance With Legal Guidelines Prohibiting the Use of Illegal Tax
Protester and Similar Designations (Reference Number 2003-40-098, dated April 2003).
                                           3

evaluate the IRS’ compliance with this provision of the law, we have elevated the
disagreement about whether employees are labeling taxpayers as ITPs to the
Department of the Treasury and encourage the IRS to raise the issue as well.
Copies of this report are also being sent to the IRS managers affected by the report
results. Please contact me at (202) 622-6510 if you have questions or
Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 927-0597.
               Fiscal Year 2005 Statutory Audit of Compliance With Legal Guidelines
                Prohibiting the Use of Illegal Tax Protester and Similar Designations




                                               Table of Contents


Background ............................................................................................... Page 1
Illegal Tax Protester Codes Were Not Used on the
Master File ................................................................................................ Page 2
Internal Revenue Service Publications Do Not Contain
Illegal Tax Protester References ............................................................... Page 2
The Internal Revenue Service Has Initiated Steps to Remove
Illegal Tax Protester References From the Internal Revenue
Manual ...................................................................................................... Page 2
Employees Used Illegal Tax Protester or Similar Designations
in Isolated Instances in Case Narratives ................................................... Page 3
Appendix I – Detailed Objective, Scope, and Methodology....................... Page 7
Appendix II – Major Contributors to This Report ....................................... Page 10
Appendix III – Report Distribution List ....................................................... Page 11
Appendix IV – Outcome Measures............................................................ Page 12
Appendix V – Use of Illegal Tax Protester and Similar Designations
in Case Narratives by Internal Revenue Service Employees
During Fiscal Years 2003, 2004, and 2005 ............................................... Page 14
Appendix VI – Examples of Illegal Tax Protester and Similar
Designations Found in Case Narratives .................................................... Page 15
Appendix VII – Management’s Response to the Draft Report ................... Page 16
         Fiscal Year 2005 Statutory Audit of Compliance With Legal Guidelines
          Prohibiting the Use of Illegal Tax Protester and Similar Designations

                                 Internal Revenue Service (IRS) Restructuring and Reform
Background
                                 Act of 1998 (RRA 98)1 Section (§) 3707 prohibits the IRS
                                 from referring to taxpayers as Illegal Tax Protesters (ITP) or
                                 any similar designations. In addition, the RRA 98 requires
                                 the removal of all existing ITP codes from the IRS Master
                                 File2 and instructs IRS employees to disregard any such
                                 designation not located on the Individual Master File.3
                                 Prior to enactment of the RRA 98, taxpayers were referred
                                 to the ITP Program when their tax returns or correspondence
                                 contained specific indicators of noncompliance with the tax
                                 law, such as the use of arguments that had been repeatedly
                                 rejected by the courts. Once a taxpayer’s account was
                                 coded as an ITP, certain tax enforcement actions were
                                 accelerated. The designation was also intended to alert IRS
                                 employees to be cautious so they would not be drawn into
                                 confrontations with taxpayers.
                                 The Congress had concerns that some taxpayers were being
                                 permanently labeled and stigmatized by the ITP designation.
                                 Taxpayers who subsequently complied with the tax laws
                                 could continue to be labeled as ITPs, which could bias IRS
                                 employees and result in unfair treatment.
                                 Internal Revenue Code § 7803(d)(1)(A)(v) (2000) requires
                                 the Treasury Inspector General for Tax Administration to
                                 annually evaluate IRS compliance with the prohibition
                                 against using ITP or any similar designations. This is our
                                 seventh review since Fiscal Year (FY) 1999. These reviews
                                 have identified areas for improvement to help the IRS
                                 comply with the ITP designation prohibition.
                                 This review was performed in the Appeals function,
                                 Criminal Investigation function, National Taxpayer
                                 Advocate function, and Office of Chief Counsel in
                                 Washington, D.C.; the Small Business/Self-Employed
                                 (SB/SE) Division in New Carrollton, Maryland; and the

                                 1
                                   Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered
                                 sections of 2 U.S.C., 5 U.S.C. app., 16 U.S.C., 19 U.S.C., 22 U.S.C.,
                                 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                 2
                                   The Master File is the IRS database that stores various types of
                                 taxpayer account information. This database includes individual,
                                 business, and employee plans and exempt organizations data.
                                 3
                                   This is the IRS database that maintains transactions or records of
                                 individual tax accounts.
                                                                                                 Page 1
           Fiscal Year 2005 Statutory Audit of Compliance With Legal Guidelines
            Prohibiting the Use of Illegal Tax Protester and Similar Designations

                                   Wage and Investment (W&I) Division in Atlanta, Georgia,
                                   during the period September 2004 through April 2005. The
                                   audit was conducted in accordance with Government
                                   Auditing Standards. Detailed information on our audit
                                   objective, scope, and methodology is presented in
                                   Appendix I. Major contributors to the report are listed in
                                   Appendix II.
                                   In prior reviews, we reported the IRS had removed the
Illegal Tax Protester Codes
                                   ITP codes from the Master File as required by
Were Not Used on the Master
                                   RRA 98 § 3707. The ITP designation has not been
File
                                   reintroduced on the Master File.
                                   RRA 98 § 3707 also prohibits using any designation similar
                                   to ITP. A review of the approximately 57,000 taxpayer
                                   accounts formerly coded as ITPs on the Master File
                                   identified no reassignments of these taxpayer accounts to
                                   any other Master File designation similar to ITP.
                                   To help promote compliance with RRA 98 § 3707, IRS
Internal Revenue Service
                                   management issued directives for employees to update
Publications Do Not Contain
                                   various publications to eliminate references to ITP
Illegal Tax Protester References
                                   terminology and programs. A review of IRS publications
                                   identified no ITP references.
                                   In each of the six prior reviews, we identified multiple
The Internal Revenue Service
                                   subsections throughout the various forms of the Internal
Has Initiated Steps to Remove
                                   Revenue Manual (IRM)4 that contained ITP references.
Illegal Tax Protester References
                                   During our FY 2004 review, we reported that there were
From the Internal Revenue
                                   24 unique ITP references throughout the various forms of
Manual
                                   the IRM.5 In response to our report, the IRS stated that it
                                   had initiated actions to remove all remaining ITP references
                                   from the IRM.
                                   In our current review, we found 19 unique ITP references in
                                   various versions of the IRM. Office of Chief Counsel
                                   management had already updated and removed 18 of these
                                   references from their functional IRM maintained on the IRS

                                   4
                                     The IRM is found in various locations on the IRS Intranet, such as the
                                   IRM online, the Servicewide Electronic Research Program, and the IRS
                                   Publishing web site. It is also found on the IRS public web site, as well
                                   as on paper and CD-ROM.
                                   5
                                     Fiscal Year 2004 Statutory Audit of Compliance With Legal Guidelines
                                   Prohibiting the Use of Illegal Tax Protester and Similar Designations
                                   (Reference Number 2004-40-109, dated June 2004).
                                                                                                    Page 2
           Fiscal Year 2005 Statutory Audit of Compliance With Legal Guidelines
            Prohibiting the Use of Illegal Tax Protester and Similar Designations

                                   Intranet. IRS management informed us that 18 of the
                                   19 references we identified should be removed as other IRM
                                   versions are updated to incorporate functional IRM
                                   revisions. One additional ITP reference was identified in
                                   the SB/SE Division functional IRM. In January 2005, we
                                   notified SB/SE Division management of this remaining ITP
                                   reference for correction.
                                   Removing all ITP references from the various forms of the
                                   IRM would prevent IRS employees from being
                                   inadvertently encouraged to improperly label taxpayers as
                                   ITPs. Based on the actions taken, we believe no further
                                   recommendations are warranted at this time.
                                   Our FY 2005 review of a sample of computer systems used
Employees Used Illegal Tax
                                   by IRS employees to document case activity identified
Protester or Similar
                                   309 isolated instances in which 272 employees designated
Designations in Isolated
                                   taxpayers as “tax protesters,” “ITPs,” “constitutionally
Instances in Case Narratives
                                   challenged,” or other similar designations. These actions
                                   are prohibited by RRA 98 § 3707. However, employees are
                                   allowed to document any statements made by a taxpayer or
                                   his or her representatives, and quoting a taxpayer’s
                                   self-designation as an ITP is not prohibited by
                                   RRA 98 § 3707. A chart detailing where inappropriate
                                   IRS employee comments were made can be found in
                                   Appendix V, and examples of the inappropriate comments
                                   can be found in Appendix VI.
                                   The IRS has taken steps in directing its employees to
                                   prevent ITP and similar designations from appearing in case
                                   narratives. On October 11, 2002, the IRS issued a
                                   Servicewide Electronic Research Program (SERP)6 alert7
                                   reminding employees of the prohibition regarding the use of
                                   ITP or any similar designations. Business and functional
                                   units independently continued to take additional steps to
                                   address this issue. These included sending out additional
                                   guidance in the form of SERP alerts, email alerts, and
                                   memoranda; updating training; conducting quality reviews


                                   6
                                     The SERP is an electronic researching tool containing many former
                                   paper research applications (e.g., publications, the IRM, the Probe and
                                   Response Guide).
                                   7
                                     Only those employees that use the SERP would have had access to this
                                   alert.
                                                                                                  Page 3
Fiscal Year 2005 Statutory Audit of Compliance With Legal Guidelines
 Prohibiting the Use of Illegal Tax Protester and Similar Designations

                             •   Criminal Investigation Management Information
                                 System (CIMIS):11 A review of 19,020 open and
                                 closed cases identified 3 cases in which 3 employees
                                 used ITP or similar designations when referring to
                                 specific taxpayers in their case narratives.
                             •   Integrated Collection System (ICS):12 A review of
                                 approximately 1.1 million open ICS records
                                 identified 214 cases in which 187 employees used
                                 ITP or similar designations when referring to
                                 specific taxpayers in their case narratives.
                             •   Taxpayer Advocate Management Information
                                 System (TAMIS):13 A review of 34,537 open
                                 TAMIS records identified 2 cases in which
                                 2 employees used ITP or similar designations when
                                 referring to specific taxpayers in their case
                                 narratives.
                             •   Taxpayer Information File (TIF):14 A review of
                                 approximately 17.2 million open TIF records
                                 identified 40 history notations in which
                                 35 employees used ITP or similar designations when
                                 referring to specific taxpayers in the Activity Code
                                 field of the TIF.15
                        This is the first year we evaluated the Activity Code field on
                        the TIF. In addition to the 40 account history notes input
                        between October 2003 and September 2004, we identified
                        315 additional instances in which account history notes
                        contained ITP or similar designations input prior to and after
                        FY 2004.


                        11
                           The CIMIS is a management tool used to track the status and progress
                        of criminal investigations.
                        12
                           The ICS is a computerized system used by Collection function
                        employees to report taxpayer case time and activity.
                        13
                           The TAMIS is an electronic database and inventory control system
                        used by Taxpayer Advocate Service employees.
                        14
                           The TIF provides tax account information for taxpayers selected for
                        the Integrated Data Retrieval System (IDRS) (the IRS computer system
                        capable of retrieving or updating stored information; it works in
                        conjunction with a taxpayer’s account records).
                        15
                           These data also appear in the case history section of a taxpayer’s
                        account module, which can be viewed by any employee accessing the
                        taxpayer’s account on the IDRS.
                                                                                       Page 5
                 Fiscal Year 2005 Statutory Audit of Compliance With Legal Guidelines
                  Prohibiting the Use of Illegal Tax Protester and Similar Designations

                                                                                                     Appendix I


                          Detailed Objective, Scope, and Methodology

The objective of this review was to determine whether the Internal Revenue Service (IRS)
complied with IRS Restructuring and Reform Act of 1998 (RRA 98)1 Section (§) 3707 and
internal IRS guidelines that prohibit IRS officers and employees from referring to taxpayers as
Illegal Tax Protesters (ITP) or any similar designations. The Treasury Inspector General for Tax
Administration (TIGTA) is required to annually evaluate the IRS’ compliance with the
prohibition against using ITP or any similar designations.2 To complete this objective, we:

I.      Determined if the ITP coding on the IRS Master File3 was removed by reviewing all
        Accelerated Issuance Codes (Transaction Code 148) as of November 2004 for Business
        Master File (BMF)4 records and Individual Master File (IMF)5 records. We analyzed
        102,860 BMF records and 614,246 IMF records containing a Transaction Code 148 on
        the account. We generally relied on the TIGTA Office of Information Technology for
        validation of the data provided to us. However, we did a limited validation of the data by
        researching a judgmental sample of 25 Taxpayer Identification Numbers (TIN)6 and
        25 Employer Identification Numbers7 on the Integrated Data Retrieval System (IDRS).8
        We also compared our historic computer extract of approximately 57,000 taxpayers
        designated as ITPs before the RRA 98 was enacted to our BMF and IMF records with an
        Accelerated Issuance Code (Transaction Code 148) to determine if any new common
        codes were being used to classify the taxpayers as ITPs.
II.     Determined if the IRS Internal Revenue Manual (IRM) contained ITP or any similar
        designations by performing key word searches of the Servicewide Policy, Directive, and
        Electronic Research system; the Servicewide Electronic Research Program (SERP);9 the
        IRS electronic publishing Intranet web site; the IRS public Internet web site; and paper

1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  Internal Revenue Code § 7803(d)(1)(A)(v) (2000).
3
  The Master File is the IRS database that stores various types of taxpayer account information. This database
includes individual, business, and employee plans and exempt organizations data.
4
  The BMF is the IRS database that consists of Federal tax-related transactions and accounts for businesses. These
include employment taxes, income taxes on businesses, and excise taxes.
5
  The IMF is the IRS database that maintains transactions or records of individual tax accounts.
6
  A nine-digit number assigned to taxpayers for identification purposes. Depending upon the nature of the taxpayer,
the TIN is either an Employer Identification Number, a Social Security Number, or an Individual TIN.
7
  A unique nine-digit number used to identify a taxpayer’s business account.
8
  The IDRS is the IRS computer system capable of retrieving or updating stored information; it works in conjunction
with a taxpayer’s account records.
9
  The SERP is an electronic researching tool containing many former paper research applications (e.g., publications,
the IRM, the Probe and Response Guide).
                                                                                                           Page 7
                Fiscal Year 2005 Statutory Audit of Compliance With Legal Guidelines
                 Prohibiting the Use of Illegal Tax Protester and Similar Designations

        IRMs in December 2004. In addition, we determined if the Chief Counsel Directives
        Manual located on the IRS Office of Chief Counsel web site contained ITP or any similar
        designations by performing key word searches in December 2004. We specifically
        searched for corrections to the exceptions identified in our Fiscal Year 2004 report10 and
        determined if there were any new references.
III.    Determined if IRS publications still contained ITP or any similar designations by
        performing key word searches of the SERP, the IRS public Internet web site, and the IRS
        electronic publishing Intranet web site in October 2004 and the IRS 2004 Federal Tax
        Products CD-ROM in December 2004.
IV.     Determined if employees were using ITP or any similar designations within taxpayer case
        narratives on the IRS Integrated Collection System (ICS)11 by securing a copy of the ICS
        database and analyzing 1,083,521 ICS records open as of September 2004 with history
        action dates between October 2003 and September 2004. We did not perform a detailed
        validation of the ICS data because this information was provided directly from the IRS
        through the TIGTA Data Center Warehouse (DCW).12 However, we did a limited
        validation of the data by matching a judgmental sample of 25 TINs to the IDRS to
        determine if the accounts were in current collection status.
V.      Determined if employees were using ITP or any similar designations within taxpayer case
        narratives on the IRS Automated Collection System (ACS)13 by securing a copy of the
        ACS database and analyzing 2,398,739 ACS records open as of September 2004 with
        history action dates between October 2003 and September 2004. We did not perform a
        detailed validation of the ACS data because this information was provided directly from
        the IRS through the TIGTA DCW. However, we did a limited validation of the data by
        matching a judgmental sample of 25 TINs to the IDRS to determine if the accounts were
        in current collection status.
VI.     Determined if employees were using ITP or any similar designations within taxpayer case
        narratives on the IRS Taxpayer Advocate Management Information System (TAMIS)14
        by securing a copy of the TAMIS database and analyzing 34,537 open TAMIS records
        with activity between October 2003 and September 2004. The Taxpayer Advocate
        Service provided the data and validation information to us. The TIGTA DCW staff
        validated the TAMIS data received. In addition, we did a limited validation of data


10
   Fiscal Year 2004 Statutory Audit of Compliance With Legal Guidelines Prohibiting the Use of Illegal Tax
Protester and Similar Designations (Reference Number 2004-40-109, dated June 2004).
11
   The ICS is a system used by Collection function employees to report taxpayer case time and activity.
12
   The DCW enhances the efficiency and accuracy of TIGTA audits and investigations by providing critical IRS
data through the TIGTA Intranet.
13
   The ACS is a telephone contact system through which telephone assistors collect unpaid taxes and secure tax
returns from delinquent taxpayers who have not complied with previous notices.
14
   The TAMIS is an electronic database and inventory control system used by Taxpayer Advocate Service
employees.
                                                                                                         Page 8
                Fiscal Year 2005 Statutory Audit of Compliance With Legal Guidelines
                 Prohibiting the Use of Illegal Tax Protester and Similar Designations

        accuracy and completeness by looking up a judgmental sample of 25 cases by accessing
        TAMIS online.
VII.    Determined if employees were using ITP or any similar designations within taxpayer case
        narratives on the IRS Appeals Centralized Database System (ACDS)15 by securing a copy
        of the ACDS database and analyzing 93,961 open Appeals narrative comment records
        identified as received in the Appeals function between October 2003 and
        September 2004. The data were provided directly from the IRS through the TIGTA
        DCW. However, we did a limited validation of data accuracy and completeness by
        looking up a judgmental sample of 31 case records by accessing the ACDS online.
VIII.   Determined if employees were using ITP or any similar designations within taxpayer case
        narratives on the IRS Criminal Investigation Management Information System (CIMIS)16
        by securing a copy of the CIMIS database and analyzing 19,020 cases opened on the
        CIMIS between October 2003 and September 2004. The data were provided directly
        from the IRS and validated by the TIGTA Chicago Audit group.
IX.     Determined if employees were using ITP or any similar designations on the Taxpayer
        Information File (TIF)17 by analyzing 12,341,522 IMF and 4,901,558 BMF taxpayer
        accounts open on the IDRS as of January 2005 with Activity Code dates input between
        October 2003 and September 2004. Since this was the first year we looked at the
        Activity Code field on the TIF, we also looked at taxpayer accounts that contained ITP or
        similar designations input before October 2003 and after September 2004.




15
   The ACDS is a computerized system used to track case receipts, record case time, document case actions, and
monitor the progress of the Appeals function workload.
16
   The CIMIS is a management tool used to track the status and progress of criminal investigations.
17
   The TIF provides tax account information for taxpayers selected for the IDRS.
                                                                                                         Page 9
             Fiscal Year 2005 Statutory Audit of Compliance With Legal Guidelines
              Prohibiting the Use of Illegal Tax Protester and Similar Designations

                                                                                Appendix II


                           Major Contributors to This Report

Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Mary V. Baker, Director
Bryce Kisler, Audit Manager
Alan Lund, Lead Auditor
Tanya Boone, Senior Auditor
Julia Tai, Senior Auditor
Craig Pelletier, Auditor




                                                                                         Page 10
             Fiscal Year 2005 Statutory Audit of Compliance With Legal Guidelines
              Prohibiting the Use of Illegal Tax Protester and Similar Designations

                                                                             Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
Chief, Appeals AP
Director, Office of Research, Analysis, and Statistics RAS
Chief, Criminal Investigation SE:CI
Chief Information Officer OS:CIO
Director, Communications and Liaison, National Taxpayer Advocate TA:CCL
Director, Office of Servicewide Policy, Directives, and Electronic Research RAS:SPDER
Director, Collection, Small Business/Self-Employed Division SE:S:C
Director, Communications, Government Liaison, and Disclosure, Small Business/Self-Employed
   Division SE:S:CGL&D
Director, Compliance, Wage and Investment Division SE:W:CP
Acting Director, Strategy and Finance, Wage and Investment Division SE:W:S
Acting Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
   GAO/TIGTA Liaison, Deputy Commissioner for Operations Support OS
   GAO/TIGTA Liaison, Deputy Commissioner for Services and Enforcement SE
   GAO/TIGTA Liaison, National Taxpayer Advocate TA
   GAO/TIGTA Liaison, Appeals AP:P:S
   Acting Chief, Customer Liaison, Small Business/Self-Employed Division SE:S:COM
   Acting Senior Operations Advisor, Wage and Investment Division SE:W:S
   GAO/TIGTA Liaison, Chief Information Officer OS:CIO:SM:PO
   GAO/TIGTA Liaison, Criminal Investigation SE:CI:S:PS




                                                                                   Page 11
                 Fiscal Year 2005 Statutory Audit of Compliance With Legal Guidelines
                  Prohibiting the Use of Illegal Tax Protester and Similar Designations

•   From the Taxpayer Advocate Management Information System (TAMIS)5 – a total of
    34,537 open cases with activity between October 2003 and September 2004 and identified
    2 taxpayer case narratives that contained ITP or a similar designation.
•   From the Taxpayer Information File (TIF)6 – approximately 17.2 million taxpayer accounts
    open on the IDRS as of January 2004 with TIF Activity Code dates input between
    October 2003 and September 2004 and identified 40 taxpayer history notations that contained
    ITP or a similar designation.
Type and Value of Outcome Measure:
•   Reliability of Information – Actual; 19 unique Internal Revenue Manual (IRM) subsections
    (see page 2).
Methodology Used to Measure the Reported Benefit:
In December 2004, we searched various versions of the IRM available to Internal Revenue
Service (IRS) employees for ITP references. These were found on the Servicewide Electronic
Research Program (SERP),7 the IRS publishing web site, the IRS public Internet web site, and
paper.




5
  The TAMIS is an electronic database and inventory control system used by Taxpayer Advocate Service
employees.
6
  The TIF provides tax account information for taxpayers selected for the Integrated Data Retrieval System (the
Internal Revenue Service computer system capable of retrieving or updating stored information; it works in
conjunction with a taxpayer’s account records).
7
  The SERP is an electronic researching tool containing many former paper research applications (e.g., publications,
the IRM, the Probe and Response Guide).
                                                                                                           Page 13
Fiscal Year 2005 Statutory Audit of Compliance With Legal Guidelines
 Prohibiting the Use of Illegal Tax Protester and Similar Designations

                                                              Appendix VII


       Management’s Response to the Draft Report




                                                                     Page 16
Fiscal Year 2005 Statutory Audit of Compliance With Legal Guidelines
 Prohibiting the Use of Illegal Tax Protester and Similar Designations




                                                                     Page 17
